NO.___________
IN THE SUPREME COURT OF THE UNITED STATES
ADAM ALFREDO FLORES, also known as Adam Flores
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in the
following Court(s):
Court of Appeals for the Fifth Circuit
United States District Court for the Southern District of Texas
The appointment was made under the following provision of law: Criminal Justice
Act. A copy of the order of appointment is appended.
Date: September 22, 2020

SANDRA A. EASTWOOD
Attorney at Law
By: /s/Sandra Eastwood
3636 S. Alameda Street
Suite B197
Corpus Christi, Texas 78411
Email: sandraeastwoodlaw@yahoo.com
Telephone: (361) 688-4900
Fax: (361) 271-1310
Texas State Bar No. 00789274
Attorney for Petitioner

1

Case 2:17-cr-00739 Document 9 Filed on 12/05/17 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
§
§
VS.
§
§
ADAM ALFREDO FLORES; aka ADAM §
FLORES
§

December 05, 2017
David J. Bradley, Clerk

UNITED STATES OF AMERICA

CRIMINAL NO. 2:17-CR-00739-1

ORDER APPOINTING CJA COUNSEL
The above Defendant has testified under oath or has otherwise satisfied this Court that he
or she is financially unable to employ counsel, and does not wish to waive counsel. Because the
interests of justice so require, Sandra Eastwood is appointed, pursuant to the provisions of the
Criminal Justice Act, to represent said Defendant in this case. An appointment by a Magistrate
Judge shall remain in effect if the case proceeds to District Court.
Arraignment and detention hearings are scheduled for: December 8, 2017 at 9:00 a.m.
Counsel will be notified electronically via CM/ECF.
Counsel is reminded to review the CJA Plan for the Southern District of Texas, available
on the Court’s website. In particular, Section VII.D states that “Appointed Counsel may not
require, request, or accept any payment or promise of payment or any other valuable
consideration for representation under the appointment, unless such payment is approved by
order of the court.”
ORDERED this 5th day of December, 2017.
___________________________________
B. JANICE ELLINGTON
UNITED STATES MAGISTRATE JUDGE

1/1

